OIG Audit Report GR-40-06-003

Office of Justice Programs, Bureau of Justice Assistance Grants Awarded to the North Carolina Department of Crime Control and Public Safety

Audit Report GR-40-06-003


March 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division has completed an audit of Project Safe Neighborhoods (PSN) grants  2003-GP-CX-0201, 2003-GP-CX-0517, and 2003-GP-CX-0519 awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), Bureau of Justice Assistance to the North Carolina Department of Crime Control and Public Safety (grantee).  The purpose of the grants was to implement a strategy aimed at reducing gun violence throughout the Eastern, Middle, and Western Judicial Districts of North Carolina.
We tested the North Carolina Department of Crime Control and Public Safety, Governors Crime Commissions (NCGCC) accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants. As of April 1, 2005, the NCGCC had received $879,735 of the $2,762,243 PSN grant funds awarded.
We found deficiencies in the areas of reporting and grant expenditures.  As a result of the deficiencies identified below, we question $170,046 or 6 percent of the total grant funds awarded.1 Specifically, we found the NCGCC: 

did not submit in a timely manner, financial status reports and progress reports;
did not ensure subgrantees claims for reimbursement of grant costs were supported and allowable.
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.



Footnote

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds put to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds put to better use.